HHS/OIG-Audit--"Safeguarding District of Columbia Residents Who Have Mental Retardation or Other Developmental Disabilities: Responding to Reported Allegations of Abuse or Neglect, (A-12-99-00008)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguarding District of Columbia Residents Who Have Mental Retardation
or Other Developmental Disabilities:  Responding to Reported Allegations
of Abuse or Neglect," (A-12-99-00008)
September 11, 2000
Complete
Text of Report is available in PDF format (3.99 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that District of Columbia agencies' policies and
practices for receiving, tracking, and investigating allegations of abuse and
neglect did not provide adequate safeguards for protecting District residents
with mental retardation or other developmental disabilities. Specifically, we
found that District agencies were not adequately tracking, or, in many instances,
not promptly investigating reported incidents and that the existing policies
and practices did not ensure that residential facility operators or other service
providers always reported incidents. As a result, we concluded that residents
receiving services from District agencies have not been adequately protected
and remain at risk until needed safeguards are implemented. Recommendations
focused on improvements to, and implementation of, needed safeguards. District
officials generally concurred with our recommendations and specified actions
they are taking to improve services to residents and establish such safeguards.